U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




UNITED STATES PATENT AND
      TRADEMARK OFFICE


   The Overseas Intellectual Property
 Rights Attaché Program Is Generally
  Working Well, but a Comprehensive
            Operating Plan Is Needed


                                  Final Report
                           IPE-19044/July 2008




                  Office of Audit and Evaluation
                                                        '"., ~
                                                             ~
 "

                                                            to""
                                                                    OF   c".

                                                                                  UNITED STATES DEPARTMENT OF COMMERCE
                                                                                  Office of Inspector General
                                                            1!J
                                                            ~..ns
                                                                                  Washington. D. C.   20230




July 17 ,   2008



MEMORANDUM FOR:                      Jon W. Dudas
                                     Under Secretary for Intellectual Property and
                                      Director ofthe U. S. Patent and Trademark Office

                                     Lois Boland
                                     Director of the Office of Intellectual
                                      Property Policy and Enforcement


FROM:	 	
                                      ~9-'
                                     Judith J. Gordon
                                     Assistant Inspector General for Audit and Evaluation

SUBJECT:	 	                          Final Report:           The Overseas Intellectual Property Rights Attache
                                     Program Is Generally Working Well, but a Comprehensive
                                     Operating Plan Is Needed 
 (IPE- 19044)

As a follow-up to our June 18 2008 , draft report , we are pleased to provide you with the final
report summarizing the results of our review of the U. S. Patent and Trademark Office
(USPTO' s) overseas intellectual property rights (IPR) attache program. We thank you for your
comments on the draft report and enclose them in their entirety as an appendix to this report.
USPTO attaches provide legal and technical expertise on IPR matters at their respective posts.
We found they are generally coordinating their activities with other U. S. government agencies.
The attaches have good relationships with their U. S. mission counterparts and with host
government officials. However, the roles and responsibilities of the attaches in relation to the
International Trade Administration s (ITA' s) Commercial Service (CS) and the u.S. Department
of State need to be better defined. In addition , guidelines and criteria for program expansion need
to be addressed, as do attache training and program continuity. To address these findings , we
recommend USPTO develop and implement a comprehensive operating plan for the attache
program in consultation with relevant U. S. government agencies to better integrate attaches in
their respective u.s. overseas missions and help them effectively perform their duties. We
appreciate your concurrence with our recommendation and look forward to USPTO' s early
FY 2009 implementation of the comprehensive operating plan we recommend.

INTRODUCTION

According to the U. S. Chamber of Commerce , IPR theft costs at least $200 billion per year and
the loss of at least 750 000 u.S. jobs. IPR theft also increases safety and health risks , impacting a
wide range of industry sectors such as manufacturing, consumer goods , technology, software
and pharmaceuticals. 	
                       1 Intellectual property rights include copyrights , trademarks , patents

I u.s. Chamber of Commerce.     Counterfeiting and Piracy                 (Online). http://www. uschambet. com/issues/index/
counterfeiting/default (accessed April 28 , 2008).
U.S. Department of Commerce                                                                Final Report IPE-19044
Office of Inspector General                                                                              July 2008

industrial designs, and trade secrets. USPTO issues patents and registers trademarks to inventors,
authors of written works, and creators to protect their intellectual property rights in the United
States. USPTO also promotes IPR protection and enforcement domestically and abroad by
conducting outreach and training activities to foster respect for IPR, working to secure strong
IPR provisions in international agreements, and encouraging strong IPR enforcement by U.S.
trading partners to deter intellectual property theft.

In 2005, the State Department added China, the United States’s largest trading partner, to a
priority watch list of countries that failed to adequately protect intellectual property rights.2 That
same year, USPTO posted an attaché at the U.S. embassy in Beijing to improve IPR protection
and enforcement. USPTO expanded the program in 2006 after receiving positive feedback from
U.S. industry and other government officials, placing an additional attaché at the U.S. embassy
in Beijing. USPTO also posted attachés at U.S. embassies in Egypt, Thailand, India, and Russia
and at U.S. consulates in Sao Paulo, Brazil and Guangzhou, China, for a total of eight IPR
attachés.3 To place these attachés, USPTO signed memorandums of understanding with CS.4

The attachés’ primary responsibilities include 1) advocating U.S. government IPR policy,
interests, and initiatives; 2) assisting U.S. businesses on IPR protection; 3) improving IPR
protection by conducting training activities with host governments; and 4) monitoring the
implementation of IPR provisions in international trade agreements. In addition, they perform
limited commercial duties as necessary, such as representing CS at host government functions
and advising U.S. companies on the local IPR environment. In some instances, the ambassador,
who heads the U.S. mission and all its employees, may also direct an attaché to perform non-IPR
duties as needed. To fulfill these responsibilities, the attachés work with several U.S. government
agencies, at the post and in Washington, D.C., including the departments of Commerce, State,
Justice, Homeland Security, and the Office of the U.S. Trade Representative. The IPR attachés
report their day-to-day activities to the senior commercial officer (SCO) at their post and
coordinate their programmatic responsibilities with the Office of Intellectual Property Policy and
Enforcement within the Office of External Affairs at USPTO headquarters.

OBJECTIVES, SCOPE, AND METHODOLOGY

For this review, we evaluated (1) the adequacy of the overseas attaché program’s objectives;
(2) how the attachés work with CS and government organizations with a role in IPR protection;
(3) USPTO’s attaché recruitment process, training, and the attachés’ terms of appointment; and
(4) USPTO’s methodology for placing the attachés. To achieve our objectives, we interviewed
the IPR attachés stationed in Brazil, China, Egypt, India, Russia, and Thailand; managers and
staff from USPTO’s Office of Intellectual Property Policy and Enforcement; and officials from
the departments of Commerce, State, Justice, and Homeland Security’s Customs and Border
Protection in Washington, D.C. and at the posts where the attachés are stationed. We also

2
  http://usinfo.state.gov/usinfo/Archive/2005/Apr/29-580129.html 

3
  In April 2008, the Brazil attaché relocated to Rio de Janeiro to better fulfill his IPR responsibilities. 

4
  Under 15 U.S.C. 4721(c)(4), the Secretary of Commerce has authority, in consultation with the Secretary of State, 

to establish foreign offices of the Commercial Service and assign to them Commercial Service Officers and such
 

other personnel as the Secretary considers necessary, using the Foreign Service personnel system. CS is the 

International Trade Administration’s export promotion unit.
 



                                                         2

U.S. Department of Commerce                                                                Final Report IPE-19044
Office of Inspector General                                                                              July 2008

reviewed program material, budget documentation, and mission plans for the IPR attaché
program as well as relevant guidance, procedures, laws, and regulations.

We conducted our review from January through April 2008 under the authority of the Inspector
General Act of 1978, Department Organizational Order 10-13, and Department Administrative
Order 213-2. This review was conducted in accordance with the Quality Standards for
Inspections issued by the President's Council on Integrity and Efficiency.

FINDINGS AND RECOMMENDATIONS

USPTO’s Overseas IPR Attaché Program Needs Improvement in Several Areas

Although IPR attachés provide valuable expertise at their overseas post and generally have good
relationships with U.S. government agencies and host government officials, we found USPTO
should address program issues involving (1) the attachés’ roles and responsibilities, (2) attaché
training, (3) program continuity, and (4) program expansion.

Attaché responsibilities for CS. Memorandums of understanding between USPTO and CS for
each individual attaché allow for them to perform limited CS duties as necessary. These duties
can include following and reporting on important commercial developments, such as industry
sector trends and structural changes, company behavior, and product availability. In addition,
attachés may be asked to represent U.S. commercial interests as part of the U.S. mission (as
directed by the SCO or the principal commercial officer at a consulate). However, expectations
and priorities regarding the attachés’ responsibilities to CS are not clearly set forth in the
memorandums.

SCOs told us they were unclear about which CS mission-related duties the resident attachés are
responsible for fulfilling. For example, the extent and content of counseling the attachés should
provide to individual companies is unclear. It is also not clear whether the attachés should be
responsible for reporting export successes when their actions induce a host government to take
favorable action on an IPR-related trade impediment which then leads to increased U.S. exports.5
As commercial officers, the attachés were placed on traditional CS workplans that require that
they report export successes. Because of the lack of clarity regarding the attachés’ CS
responsibilities, some SCOs indicated the need for additional specific guidance from CS and
USPTO on this subject prior to the attachés’ postings.

To better clarify the attachés’ responsibilities, USPTO is working with ITA’s Market Access and
Compliance Office of Intellectual Property to revise the attachés’ workplans to better define their
CS and USPTO responsibilities.6 CS staff members have also been consulted to assist in
developing a common workplan for use by all the attachés. The aim is to tailor the workplan to
account for and give credit to the attachés for their nontraditional CS duties, which should better
define expectations.

5
  Export successes are CS’ primary performance measure and calculate the dollar value of exports completed by
U.S. companies as a result of direct CS assistance. 

6
  Market Access and Compliance’s Office of Intellectual Property works with the attachés to help U.S. businesses
 

enforce their intellectual property rights in foreign markets. 



                                                         3

U.S. Department of Commerce                                                               Final Report IPE-19044
Office of Inspector General                                                                             July 2008

Roles and responsibilities of USPTO attachés and State economic affairs officers. State
Department economic affairs officers, who already covered IPR as part of their portfolios, were
also unclear about the IPR attachés’ responsibilities and whether the attachés would complement
existing activities. At U.S. missions overseas, intellectual property rights have traditionally been
the domain of State’s economic affairs section. Prior to the attachés’ postings overseas,
diplomatic cables announcing the attachés’ arrival stated they would focus on IPR protection and
enforcement, provide training to host government officials, and offer legal and technical IPR
expertise at the post. As the attachés became established at the post, the economic affairs officers
and the IPR attachés verbally agreed which party was to take the lead on issues or tasks
involving intellectual property rights. These arrangements suffice for the moment, but they will
have to be revisited every time officer assignments change if they are not documented.

Even though the attachés and the economic affairs officers have forged their own verbal
agreements, official responsibility for certain IPR-related tasks has not been determined. One
example is the extent of cable reporting on IPR-related meetings and activities. State’s primary
method of communication with headquarters is through diplomatic cables, but USPTO
communicates with e-mail. Another question is how much input the attachés should have in
formulating the post’s Special 301 report7 on the local IPR environment. Yet another involves
the extent of the attachés’ collaboration on the posts’ mission strategic plans. Without clear
definition of responsibilities, there is always a risk that these tasks either might not be completed
or might be done without sufficient input from relevant embassy sections. Several attachés and
economic affairs officers said clarifying the roles and responsibilities between the economic
affairs sections and the IPR attachés would help avoid overlap in duties and ensure key activities
are completed even if officers rotated out of positions.

Attaché training. Embassy officials told us that some attachés adapted well to embassy
operations and performed additional post functions when needed. But many of the attachés have
not previously worked in an embassy and their relative lack of experience and preparation
working for the U.S. government overseas has caused some problems. According to embassy and
other government officials, the attachés’ unfamiliarity with the embassy culture and operations
has at times strained relations between the attachés and embassy staff. Embassy officials also
expressed concern that due to their lack of embassy experience, several attachés do not
adequately coordinate with others in the mission who are also working on complementary issues.
Several embassy staff members said a few attachés minimized their involvement with embassy
tasks because they worked for USPTO, rather than CS or the State Department. In addition,
embassy and Commerce officials mentioned that some attachés have trouble with cable
reporting. Cable writing is a necessary responsibility in an overseas mission, but three of the
eight attachés have not taken a cable writing training course.

The formal training provided to attachés to prepare for working in an embassy is limited. CS
sends all commercial officers to be deployed overseas to training at the State Department’s
Foreign Service Institute. CS mandates that the IPR attachés take the Equal Employment
Opportunity/Diversity, Security Overseas Seminar, and Simplified Acquisition Procedures
training courses. According to the attachés’ training records, five of the eight attachés had taken

7
 The Special 301 Report is the U.S. Trade Representative’s annual review of the global state of IPR protection and
enforcement, conducted per the Special 301 provisions of the Trade Act of 1974.


                                                         4

U.S. Department of Commerce                                                                 Final Report IPE-19044
Office of Inspector General                                                                               July 2008

at least two of the three mandatory courses, but none had taken all three. CS personnel told us
existing work commitments, limited class openings, weekend training dates, and a general lack
of interest limited the attachés participation in the training programs.

During our review, USPTO officials acknowledged they need to improve training for embassy
posting and stated that the agency will consider additional training alternatives to improve the
attachés’ preparation for working in overseas posts. Many embassy officials we spoke to told us
it is inherently difficult to add new officers to a pre-existing embassy structure, but they believed
they would have better working relationships with the USPTO attachés if those attachés were
better trained at performing embassy functions before arriving at the post.

Current attachés also told us they are interested in providing on-the-job training to new attachés’
to ease transition at the posts. They said a significant part of an attaché’s job requires building
relationships with host government officials, and their successors would be able to deepen
established relationships and continue IPR activities at the posts if there were a structured
transition plan. Such a plan could include temporary duty assignments for incoming attachés,
mentoring by current attachés, and participating in the attachés’ IPR training programs.

Ensuring attaché continuity at post. During our review, it was clear that the attachés are filling a
critical need at their respective U.S. missions, even though the overseas IPR attaché program is
still relatively new. In the coming year, at least two of the attachés will leave their posts and need
to be replaced. The attaché position in Egypt and the senior attaché position in Beijing will be
vacant in September 2008 and March 2009, respectively. Because of their important roles,
USPTO needs to ensure continuity and coverage during the attachés’ transitions at the posts.

Currently, attachés serve initial 2-year limited appointments and may extend their assignments
for up to 3 additional years. USPTO uses CS’ Office of Foreign Service Human Resources
(OFSHR) to handle recruitment, training, and other personnel-related tasks involved in posting
an attaché overseas. In March 2008, OFSHR posted vacancy announcements for the China and
Egypt attaché positions on the federal government’s USAJobs website.8 In addition, USPTO
advertised the positions internally and held discussions among its attorney-advisors to gauge
interest in the positions.

While it appears there is sufficient lead time to fill the position in China, it is not clear whether
the position in Egypt will be filled prior to the departure of the current attaché.9 Allowing
sufficient lead time for filling attaché vacancies is critical for ensuring continuity at the posts.
The bureau should have started recruiting for the Egypt position earlier than it did because CS’
human resources manager generally recommends advertising limited appointment vacancies 9 to
12 months prior to the date the position should be filled. This long lead time is necessary to fill

8
  According to USPTO, OFSHR received 40 applications for the vacancy in China and 23 applications for the one in
Egypt at the close of the announcements in April 2008.
9
  At our exit conference, the director and acting deputy director of the Office of Intellectual Property Policy and
Enforcement informed us that embassy officials in Cairo may not continue to support the placement of the Middle
East regional attaché in Egypt after this fiscal year. As a result, USPTO is evaluating placing the attaché in another
location in the Middle East region. If this happens, there will certainly be a gap in coverage for the region, as
moving the position to a new location would require Chief of Mission approval, and the position would need to be
announced by CS.


                                                          5
 

U.S. Department of Commerce                                                                 Final Report IPE-19044
Office of Inspector General                                                                               July 2008

an overseas position because the quality of the applicant pool and the security and medical
clearance processes can often result in delays. For example, prior vacancies in Russia and China
took significantly more time to fill than anticipated, which delayed the actual postings overseas.
Several attachés and other U.S. government officials suggested to us that USPTO could increase
the size and quality of its applicant pool by directly advertising to law firms specializing in IPR
and business advocacy groups that support IPR protection.

Program expansion. USPTO considers the attaché program to be in the pilot stage, and has not
developed specific guidelines or criteria for posting additional attachés. USPTO officials told us
that the current attachés were placed in critical overseas markets and several were tasked with
regional responsibilities covering Southeast Asia, Latin America, and the Middle East. Although
industry groups have given USPTO positive feedback on the attaché program, USPTO had not
planned to assess the program and consider expansion until the first round of attachés had
completed their initial appointments.

However, on December 5, 2007, a bill was introduced in the U.S. House of Representatives to
restructure federal government resources to improve IPR enforcement.10 One section of the bill
calls for posting at least 10 more attachés overseas within 2 years of the bill’s enactment.
USPTO has been monitoring the bill’s progress and submitted comments on the legislation. If
the bill is enacted, USPTO will need to develop criteria to guide the placement of additional
attachés. During our review, we raised the possibility of the program’s expansion with USPTO
staff. They suggested criteria such as the size of a country’s economy, political and geographic
divisions, transshipment levels, and deficiencies in a country’s IPR regulatory structure or
enforcement regime. However, no significant work to date has been done to develop a plan for
expanding the program. Planning and developing the criteria now would help USPTO facilitate
the process for posting additional attachés at a later date.

Summary and Recommendation

USPTO’s attachés provide legal and technical IPR expertise at their overseas post and generally
have good relationships with their U.S. government counterparts and host government officials.
However, USPTO needs to better define attachés’ roles and responsibilities, improve attaché
training, ensure program continuity, and establish guidelines and criteria for the program’s
expansion. We recommend that USPTO develop a comprehensive operating plan for the
overseas attaché program. This plan should encompass the elements of the program from
candidate recruitment to ensuring IPR coverage and continuity at the post when the attachés
transition. Once developed, this plan should be implemented in consultation with other relevant
U.S. government agencies to better integrate attachés within their respective U.S. missions.




10
  Prioritizing Resources and Organization for Intellectual Property Act of 2008 (Pro-IP Bill), H.R. 4279, 110th
Cong. (2008). The House of Representatives passed this bill on May 8, 2008. It was received in the Senate and
referred to the Senate Committee on the Judiciary on May 12, 2008.


                                                         6
 

U.S. Department of Commerce                                                Final Report IPE-19044
Office of Inspector General                                                              July 2008

USPTO’s Response

In your written response to our draft report, USPTO agreed with our recommendation to
establish a comprehensive operating plan for the overseas IPR attaché program. USPTO staff are
working on the operating plan and expect it to be in place by the first quarter of FY 2009.

Please provide us with an action plan in response to our recommendation within 60 calendar
days. If you have any questions or comments about this final report, please contact me on
(202) 482-5643 or Lisa Allen, Deputy Assistant Inspector General for Inspections and Program
Evaluations, on 202-482-2754.


cc: 	   Todd J. Zinser, Inspector General
        Barry K. Hudson, Chief Financial Officer, USPTO
        Paul Salmon, Acting Deputy Director, Office of Intellectual Property Policy and
         Enforcement, USPTO
        Welton Lloyd, Audit Liaison, Office of Corporate Planning, USPTO
        Daniel E. Harris, Deputy Assistant Secretary for International Operations, CS
        William Zarit, Regional Director for the East Asia and Pacific Region, CS




                                               7
 

U.S. Department of Commerce                                                                                     Final Report IPE-19044
 

Office of Inspector General                                                                                                   July 2008
 


                                   APPENDIX:
 

                   USPTO MANAGEMENT RESPONSE TO THE DRAFT REPORT
 





                                UNITlm Sr,\TES PA1'E:!\T AND TKAI)E:MAKK O"fiICE
                                      ~ Socttt.u.yfJI e:::...1oID:Cf! Mt. 1l-"T!l.UClUA1. Pt(ftl1'Y ~IIO
                                      I>lUlC.T:lOt or",. U!«m> SIMa 1'~.C<t......, n..ov.v.u oma


                                                                                                   JULIO 1000

              MEMORANDUM FOR Lisa Allen
                             Deputy Assistant Inspector GClleral for
                                Inspections and Program Evaluations

              FROM:                       Jon W. Dudasl tit r~                       AUt-«.
                                          Under Secretary ofCommerct for trilcllectual Property and
                                            Director of the United States Patent and Trademark OffiC<J

              SUBJECT:                    Draft Inspection Repon: The Overseas Intellectual Property
                                          Rights Attache Program is Generally Working Well but a
                                          CQmpreheTl$ive Operating Plan Is Needed (lPE-/9044)


              Thank you for your memorandum of June 18,2008, detailing OIG's findings and
              rcoommendation with regard to the Inlellectual Property Rights (IPR) Attache Program.

              The concept of posting IPR attaches around the world was developed as a Sccrclarial
              ;nitiati~·e and adopted as a part of the Administration's successful interagency Strategy
              Targeting Organized Piracy (STOP!) initiative. Candidly, we are pleased that the OIG
              has viewed this program as valuable and generally working well. Moreover, we welcome
              the OIG's findings and the reoomm.endntion to establish a comprehensive Operating Plan
              for the program.

              In the oourse of developing and executing the ambitious IPR AUachc initilttive, the
              United States Palent and Trademark Office (USPTO) has developed llumerous "lessons
              learned." ln fact, we began working on a comprehensive Operating Plan prior to the
              lune 16, 2008 exit interview. We expect that the plan will be in place by the first quarter
              ofFY 2009 and that it will evolve as the program evolves.

              By wa)" of background, we l;:valuated several mechanisms for expeditiously posting the
              IPR attaches. Posting via the Slate Department (an established mechanism), obtaining
              USPTO authority for direct posting, and partncriog our Department of Commerce
              colleagues through the Forcign Commercial Service (FCS) were all explored. As you
              know, wo selected the rcs route based on a recommendation from your Office,
              following a review ofFCS operations in China. We are grateful to our FCS oolleagues,
              and were happy that such an established mechanism existed within DOC for posting n(){1­
              traditional FCS officers from other DOC BUfCaus (such as N1ST and ITA!l'vfAC).




                                    P.o. Box 1450. "'1exaOO<\B. Vlrgif*l 22J1~1450       ._!J1!I1'TO!XN




                                                                       8
 

U.S. Department of Commerce                                                                            Final Report IPE-19044
 

Office of Inspector General                                                                                          July 2008
 





                                                             2

              The USPTQ..FCS partnership, which enjoys the support of the Secretary and our STOPl
              interagency partners, has generally been welcomed by the Senior Commercial Officers
              (SeOs) at tht: various [PR Attache IJOSts, many of which have not previously experienced
              non-traditional FCS officers.

              As the DIG's report suggests, integration of the IPR attaeh6i, as non-traditional FCS
              offit,;crs, has understandably encountered some challenges. We will continue work with
              our FCS colleagues 10 ensure both filiI integration of the IPR attaches at post and
              mwdmum use in their area of intellectual property expertise. Similarly, we nre working
              through the State Department to ensure that various post Eoonomic Sections are fully
              aware of the IPR attaches' mission and the conditions established when these positions
              were established through the NSDD-38 process. In pMticu]ar, wenecd to provide a
              better understanding that the alhll)h6> are a "g().to" resource for II' issues, not competilors
              with Econ Officers. Thc IPR attaches are USG learn pla)·ers who support the Embassy or
              Consulate as resources on lPR maUers.

              1be USPTO recently revised Ihe IPR attache work plan, which was submitted to the
              Department of Commerce's Human Rc;,ourccs deparuncnl Jor review. TIle work plan
              better defines the IPR atlnches' responsibilities and eJi.pectations, providing clarification
              to their nontraditional CS duties, and should help to further differentiate their role from
              that ofStatc Department Econ Officers.

              The OIG's report mentions the need for further attache training. We agree fully that
              training is critical. As an example of our complete agreement, in 2007 - prior to his
              permanent posting - the USPTO sent the IPR attache in Guangzhou, China, to China for
              a three-month temporary duty assignment (TDY), to introduce him to host government
              officials, and to expose him to embassy culture and operations. In addition, in Doct..wbcr
              2007, we brought all IPR atlllches available back to the USPTO for meetings and
              wnsullalions with various U.S. Government agencies, and industry representatives. This
              week's worth of meetings were designed to update thc attaches on substantive IP issues
              and 10 provide the attaches with the opportunity to speak "'ith and learn from other lPR
              altach~ from other regions, with more familiarity and experience with embassy
              operations. We will work to make TOYs a regular part of the training that new attaches
              receive prior 10 their postings. and will continue to hold llIUlual IPR attache meetings at
              the USPTO.

              We very much appreciate the OIG's support ofthis stratcgic program. The USPTO will
              continue to work closely with our FCS l.;olkagucs and interagency partners to better
              definc the IPR auaches' roles and responsibilities, improvc training, ensure program
              continuity, and establish guidelines and criteria for antil.-ipattd expansion of the program.




                                                                 9
 

